ip

CERTIFICATE OF SERVICE
This is to inform the court the three copies of the petition were sent via postal
service to the defendant’s attorney on record with the US Courts of appeal 9th
circuit. Attorney for Metro Health Medical Center: Tucker Ellis LLP-515 South
Flower Street, Forty-Second Floor Los Angeles, CA 90071-2223, Telephone 213-4303301 and Attorney for Case Western Reserve University: Ogletree, Deakins, Nash,
Smoak and Stewart, P.C. Park Tower, Fifteenth Floor 695 Town Center Drive Costa
Mesa, CA 92626. Telephone 714-800-7900.

Executed On July 6, 2021.

Peter C Benedith

C_
Petitioner-appellant-plaintiff
819 Santee Street Apt 905
Los Angeles Ca 90014
3104830879
petenwe@yahoo.com

/*
/“N

CALIFORNIA ALL PURPOSE ACKNOWLEDGMENT
A notary public or other officer completing this certificate verifies only the identity of the individual who signed
the document to which this certificate is attached, and not the truthfulness, accuracy, or validity of that
document.
STATE OF CALIFORNIA
COUNTYOF

}

io f

J
Keith Me Gruder

before me,

On
Public,

Notary

(here insert name and title of the officer)

Date

personally appeared

who proved to me on the basis of satisfactory evidence to be the person(s) whose name(s) is/are
subscribed to the within instrument and acknowledged to me that he/she/they executed the same
in his/her/their authorized capadty(ies), and that by his/her/their signature(s) on the instrument
the person(s), or the entity upon behalf of which the person(s) acted, executed die instrument.
I certify under PENALTY OF PERJURY under the laws of the State of California that the
foregoing paragraph is true and correct.
WITNESS my hand and official seal.

I

Is

KEITH McGRUDER
>
COMM# 2293123
zg
Notary Public - California
Los Angeles County
My comm. Expires July 12.2023 5

z
<

J

Signature:

]Vl -

(Seal)
!

OPTIONAL
Description of Attached Document
Number of Pages:

Title or Type of Document:
Document Date:

Other:

2015 Apostille Service. 707-992-5551 WWW.CalifomiaApQStillc.US

California Mobile Notary Network www.CAMNN.com

